<html>
<title> - EXAMINING MICROBEADS IN COSMETIC PRODUCTS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




               EXAMINING MICROBEADS IN COSMETIC PRODUCTS

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON HEALTH

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION
                               __________

                              MAY 1, 2015
                               __________

                           Serial No. 114-39
                           
                           
                           
                           
                           
                           
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                       
                           
                           
                           
                           
                           
                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov                      
                                     ______

                    U.S. GOVERNMENT PUBLISHING OFFICE 

96-979                       WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                      
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                     Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota
                         Subcommittee on Health

                     JOSEPH R. PITTS, Pennsylvania
                                 Chairman
BRETT GUTHRIE, Kentucky              GENE GREEN, Texas
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
JOHN SHIMKUS, Illinois               LOIS CAPPS, California
TIM MURPHY, Pennsylvania             JANICE D. SCHAKOWSKY, Illinois
MICHAEL C. BURGESS, Texas            G.K. BUTTERFIELD, North Carolina
MARSHA BLACKBURN, Tennessee          KATHY CASTOR, Florida
CATHY McMORRIS RODGERS, Washington   JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILLY LONG, Missouri                 JOSEPH P. KENNEDY, III, 
RENEE L. ELLMERS, North Carolina         Massachusetts
LARRY BUCSHON, Indiana               TONY CARDENAS, California
SUSAN W. BROOKS, Indiana             FRANK PALLONE, Jr., New Jersey (ex 
CHRIS COLLINS, New York                  officio)
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)
















  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Joseph R. Pitts, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     1
    Prepared statement...........................................     4
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................     4
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     6
    Prepared statement...........................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7

                               Witnesses

Dan Wyant, Director, Michigan Department of Environmental Quality     9
    Prepared statement...........................................    12
    Answers to submitted questions...............................    52
Linda R. Greenstein, State Senator, New Jersey Legislature.......    16
    Prepared statement...........................................    18
    Answers to submitted questions \1\...........................    57
Molly Flanagan, Alliance for the Great Lakes.....................    21
    Prepared statement...........................................    23
    Answers to submitted questions...............................    59
John Hurson, Executive Vice President of Government Relations, 
  Personal Care Products Council.................................    30
    Prepared statement...........................................    32
    Answers to submitted questions...............................    66

                           Submitted Material

H.R. 1321........................................................     2
Statement of 5 Gyres Institute, submitted by Mr. Pallone.........    48
Statement of Surfrider Foundation, submitted by Mr. Pallone......    49
Statement of the American Chemistry Council, submitted by Mr. 
  Shimkus........................................................    50

----------
\1\ Ms. Greenstein did not respond to submitted questions by the 
  time of printing.
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  

 
               EXAMINING MICROBEADS IN COSMETIC PRODUCTS

                              ----------                              


                          FRIDAY, MAY 1, 2015

                  House of Representatives,
                            Subcommittee on Health,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:15 a.m., in 
room 2123, Rayburn House Office Building, Hon. Joseph R. Pitts 
(chairman of the subcommittee) presiding.
    Present: Representatives Pitts, Guthrie, Shimkus, Burgess, 
Blackburn, Lance, Bilirakis, Long, Ellmers, Brooks, Collins, 
Upton (ex officio), Green, Schakowsky, Kennedy, and Pallone (ex 
officio).
    Staff Present: Clay Alspach, Chief Counsel, Health; Gary 
Andres, Staff Director; Leighton Brown, Press Assistant; Noelle 
Clemente, Press Secretary; Andy Duberstein, Deputy Press 
Secretary; Carly McWilliams, Professional Staff Member, Health; 
Tim Pataki, Professional Staff Member; Graham Pittman, 
Legislative Clerk; Mark Ratner, Policy Advisor to the Chairman; 
Adrianna Simonelli, Legislative Associate, Health; Heidi 
Stirrup, Health Policy Coordinator; Ziky Ababiya, Minority 
Policy Analyst; Christine Brennan, Minority Press Secretary; 
Jeff Carroll, Minority Staff Director; Tiffany Guarascio, 
Minority Deputy Staff Director and Chief Health Advisor; 
Brendan Hennessey, Minority Policy and Research Advisor; Ashley 
Jones, Minority Director, Outreach and Member Services; and Tim 
Robinson, Minority Chief Counsel.

OPENING STATEMENT OF HON. JOSEPH R. PITTS, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Pitts. The subcommittee will come to order, and the 
chair will recognize himself for an opening statement.
    Today's Health subcommittee hearing will be examining the 
sale, distribution, and use of cosmetics that contain synthetic 
plastic microbeads and what impact those microbeads may have on 
our waterways.
    Our colleagues Representative Frank Pallone and Fred Upton 
have jointly introduced legislation, H.R. 1321, the Microbead-
Free Waters Act of 2015, which would prohibit the sale or 
distribution of cosmetics containing synthetic plastic 
microbeads.
    [The information follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    Mr. Pitts. And a number of state legislatures have also 
taken independent action in this area.
    Scientists have discovered the presence of these tiny 
plastic beads accumulating at high levels in the Great Lakes 
and other waterways. Microbeads are commonly used as an 
abrasion or exfoliating scrub and can be found in toothpaste, 
facial scrubs, some soaps, and even shampoos.
    Admittedly, there is other plastic litter that has broken 
down from plastic debris, but the concern is that the synthetic 
plastic microbeads are difficult, if not impossible, to break 
down. We will hear from the cosmetic industry today about their 
commitment to phasing out the use of microbeads in their 
products. We also have two witnesses from the Great Lakes to 
discuss the impact on their waterways as well as New Jersey 
State Senator Greenstein, who co-sponsored the legislation in 
her home State.
    The concern of course is that different State-based 
legislation will result in a patchwork of regulations and 
requirements, making it difficult, if not impossible, for 
manufacturers to comply with so many different laws.
    Do I have any requests for time on my side?
    If not, I yield back and recognize the ranking member, Mr. 
Green, for 5 minutes for his opening statement.
    [The prepared statement of Mr. Pitts follows:]

               Prepared statement of Hon. Joseph R. Pitts

    The Subcommittee will come to order.
    The Chairman will recognize himself for an opening 
statement.Today's Health Subcommittee hearing will be examining 
the sale, distribution, and use of cosmetics that contain 
synthetic plastic microbeads and what impact those microbeads 
may have on our waterways.
    Our colleagues, Reps. Frank Pallone (NJ) and Fred Upton 
(MI) have jointly introduced legislation, H.R. 1321--the 
``Microbead-Free Waters Act of 2015'' which would prohibit the 
sale or distribution of cosmetics containing synthetic plastic 
microbeads and a number of state legislatures have also taken 
independent action in this area.
    Scientists discovered the presence of these tiny plastic 
beads accumulating at high levels in the Great Lakes and other 
waterways.
    Microbeads are commonly used as an abrasion, or exfoliating 
scrub, and can be found in toothpaste, facial scrubs, some 
soaps and even shampoos. When these microbeads wash down the 
drain, they end up in sewer systems and because they are small, 
and buoyant, they pass through sewage treatment plants and are 
discharged into rivers, lakes and oceans.
    Admittedly, there are other plastic litter that had broken 
down from plastic debris, but the concern is that the synthetic 
plastic microbeads are difficult, if not impossible, to break 
down.
    We will hear from the cosmetics industry today about their 
commitment to phasing out the use of microbeads in their 
products. We also have two witnesses from the Great Lakes to 
discuss the impact on their waterways as well as New Jersey 
State Senator Greenstein, who co-sponsored the legislation in 
her home state.
    The concern, of course, is that different state-based 
legislation will result in a patchwork of regulations and 
requirements making it difficult, if not impossible, for 
manufacturers to comply with so many different laws.
    I look forward to the testimony today and yield the balance 
of my time to Rep.--------------------------------------------
--

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman, and good morning.
    I would like to thank Chairman Pitts for holding the 
hearing today and thank our distinguished panelists for joining 
us this morning in discussion of this important issue. I would 
also like to recognize the leadership of our chairman of the 
full committee and ranking member, Chairman Fred Upton and 
Ranking Member Frank Pallone, in coming together in a spirit of 
bipartisan and introducing the Microbead-Free Waters Act.
    Plastics today is an integral part of daily life, from 
health care and food preservation to communications and home 
construction. Plastic's tremendous range of uses is based on 
its desirable products and properties, including durability, 
corrosion-resistance, and low cost. The plastic industry is our 
Nation's third largest manufacturing industry, responsible for 
$350 billion in economic activity and hundreds of thousands of 
jobs in our country with several plastic manufacturers located 
in my district in Houston, Harris County, Texas. In much part 
due to the very properties that make plastic so universal in 
daily life, plastic can have a negative impact on our 
environment. All the more so when it is not disposed of 
properly and released into the environment without oversight 
and restriction.
    This is what is happening with micro plastic products of 
microbeads. The microbeads, due to their tiny size, 5 
millimeters or less, fail to be captured by modern wastewater 
treatment plants and end up in our Nation's rivers, lakes, and 
oceans. The accumulation of microbeads in our Nation's waters, 
particularly the Great Lakes, has been startling in recent 
years and deserves immediate Federal attention.
    Recent studies in the Great Lakes have found debris 
concentration, much of it attributable to microbeads, that 
rival some of the largest ocean garbage patches. When released 
in the environment, microbeads present a clear risk to our 
Nation's waterways and wildlife, from the physical impacts of 
wildlife ingestion of microbeads to the harmful chemicals, such 
as PCBs and DDT, that can accumulate on these tiny plastic 
particles.
    I am pleased to learn that most of the cosmetic industry, 
including nationwide manufacturers like Procter & Gamble, 
Johnson & Johnson, have voluntarily decided to replace 
microbeads in their personal care products with natural 
biodegradable alternatives, such as ground almonds, ground 
walnuts, cocoa beads, and sea salt. Nevertheless, due to the 
current technical restraints on our Nation's wastewater system, 
it is necessary that plastic and nonbiodegradable microbeads in 
cosmetic products be removed from manufacture and sale at the 
earliest feasible date.
    The legislation before us today will provide an appropriate 
Federal response to microbeads by amending the Federal Food, 
Drug, and Cosmetic Act to prohibit the sale and distribution of 
cosmetics containing microbeads by January 1 of 2018. I am 
support of that effort, and I hope we can use today's hearing 
and learn more improvements are necessary in this legislation 
and bring momentum towards passage and enactment.
    Again, I thank you, Mr. Chair.
    Is there anyone else on my side that would like the 
remainder of my time?
    Hearing nothing, I yield back.
    Mr. Pitts. If not, I thank the gentleman.
    We are voting on the floor now. So we will finish opening 
statements before going to the floor, and I am pleased at this 
time to recognize the chairman of the full committee and one of 
the sponsors of the Pallone-Upton bill, Mr. Upton, 5 minutes 
for opening statement.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman.
    I won't take 5 minutes. Microbeads, they are tiny, plastic, 
but big-time pollution, especially for our lakes, rivers, and 
streams.
    So what is a microbead? Well, you may not know it or want 
to admit that you know a little bit about this, but millions of 
Americans use them on a daily basis. Microbeads are those tiny, 
little scrubbers in your soap, cleansers, and, yes, even in 
toothpaste. On their own, they are nearly visible, smaller than 
a pinhead, as you can see here, compared with the size of a 
penny.
    But once they are flushed down the drain is when the 
problem really does begin. Because they are so small, they 
escape water filtration systems and end up in our bodies of 
waters, obviously, including the Great Lakes. They are known to 
absorb pollutants and are often mistaken as food by fish and 
wildlife. And simply put, microbeads are causing mega problems. 
That is why I partnered with our full committee ranking member, 
Frank Pallone, to co-author H.R. 1321, the Microbead-Free 
Waters Act of 2015.
    There are also currently 26 States that have engaged on 
legislation to address this very important issue.
    I am excite to partner with Ranking Member Pallone on an 
issue that is so important to not only my district in southwest 
Michigan but the entire Great Lakes region. Both, to me and my 
family personally, as someone who grew up on Lake Michigan and 
represents a large chunk if the Michigan coastline, I 
understand firsthand how important it is to maintain the beauty 
and integrity of our Great Lakes. The Great Lakes have survived 
many a foe, severe pollution, discharge from refineries, zebra 
muscles, an attempt to steal our water, particularly from 
Texas, just to name a few. Our fight against the Asian carp 
also continues. I will not stand for any activity that puts our 
beloved Great Lakes in jeopardy.
    I look forward to working with my colleagues in a 
bipartisan manner to get this harmful pollution out of our 
waterways. We need this bill to fight the army of microbeads 
that is growing by the day in our waters.
    I want to thank all of our witnesses, particularly my good 
friend and constituent, Dan Wyant, who heads the Michigan 
Department of Environmental Quality, and Molly Flanagan from 
the Alliance for the Great Lakes. As the Holland Sentinel 
editorialized in March, there is no reason keeping our faces 
feeling clean should require us to trash our lakes.
    Yield back.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Microbeads--they're tiny plastic, but big time pollution, 
especially for our lakes, rivers, and streams.
    What's a microbead? You may not know it, or want to admit 
you exfoliate, but millions of Americans use them on a daily 
basis. Microbeads are those tiny little scrubbers in your soap, 
cleansers, and even toothpaste. On their own, they are nearly 
invisible, smaller than a pinhead--as you can see here compared 
with the size of a penny.
    But once they've been flushed down the drain is when the 
problems begin. Because they are so small, they escape water 
filtration systems and end up in our bodies of water, including 
the Great Lakes. They are known to absorb pollutants, and are 
often mistaken as food by fish and wildlife. Simply put, 
microbeads are causing mega-problems.
    This is why I partnered with our full committee Ranking 
Member Frank Pallone to author H.R. 1321, the Microbeads-Free 
Waters Act of 2015. There are also currently 26 states that 
have engaged on legislation to address this important issue.
    I am excited to partner with the Ranking Member on an issue 
that is so important to my district in Southwest Michigan, the 
entire Great Lakes Region, and to me and my family personally. 
As someone who grew up on Lake Michigan and represents a large 
chunk of Michigan coastline, I understand firsthand how 
important it is to maintain the beauty and integrity of our 
Great Lakes. The Great Lakes have survived many a foe--severe 
pollution, oil spills, discharge from refineries, zebra 
mussels, and attempts to steal our water, just to name a few. 
Our fight against the Asian carp also continues. I will not 
stand for any activity that puts our beloved Great Lakes in 
jeopardy. I look forward to working with my colleagues in a 
bipartisan manner to get this harmful pollutant out of our 
waterways. We need this bill to fight the army of microbeads 
that is growing by the day in our waters.
    I want to thank the witnesses for being here, especially my 
Michigan and Great Lakes friends, Dan Wyant of the Michigan 
Department of Environmental Quality and Molly Flanagan from the 
Alliance for the Great Lakes. And thank you for your efforts 
protecting our pristine lakes.
    As the Holland Sentinel editorialized in March, ``There's 
no reason keeping our faces feeling clean should require us to 
trash our lakes.''

    Mr. Pitts. The chair thanks the gentleman.
    I now recognize the ranking member of the full committee, 
Mr. Pallone, for 5 minutes for an opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman, for holding this 
morning's hearing examining microbeads in cosmetic products. 
The hearing also gives us an opportunity to discuss legislation 
that I have introduced with Chairman Upton, the Microbead-Free 
Waters Act of 2015. And I want to thank Chairman Upton for his 
support of the legislation. I would like to welcome our 
witnesses and thank them for sharing their knowledge with the 
committee today, particularly New Jersey State Senator Linda 
Greenstein, who is one of the counties that I represent. And 
Senator Greenstein is a leader in New Jersey who worked hard to 
pass a State law banning the manufacturing and sale of cosmetic 
products containing plastic microbeads. So welcome.
    Cosmetic products like face and body washes contain tiny 
plastic particles or microbeads that are used as exfoliants. 
While these plastic products are not harmful to the user of the 
product, studies have shown that microbeads can easily escape 
the screens in wastewater treatment plants and enter our 
Nation's lakes, rivers, and oceans. A study by the 5 Gyres 
Institute, an organization dedicated to research and advocacy 
on the issue of plastic pollution, found high concentrations of 
plastic microbeads in samples pulled from Lake Erie. In some 
cases, they found that plastic microbeads outnumbered more than 
450,000 per square kilometer, and this plastic does not belong 
in our Nation's waters, and certainly not in such extreme 
amounts.
    This high concentration of plastic microbeads in our 
country's lakes and other bodies of water is cause for concern 
for a number of reasons. Particles this small often float on 
the surface of the water and can attract other pollutants that 
collect on the water's surface. If consumed by fish and other 
organisms, these chemicals accumulated on the surface and 
inherent in the plastic itself can then travel up the food 
chain, potentially being transferred to humans who consume 
fish, bivalves, and crustaceans.
    I have serious concerns about fish and other aquatic life 
potentially ingesting these plastic particles and the effect 
this could have on humans who consume the fish. While many of 
us strive to eat local seafood caught by fishermen in our 
communities, we often eat seafood from other areas of the 
country. So, until a national standard is set, we can't be 
certain these particles are kept out of our Nation's waters and 
are not being accidentally consumed by fish harvested from 
other regions of the country.
    Further, there have been anecdotal reports by dentists and 
dental hygienists of plastic microbeads from toothpaste being 
lodged in a patient's gumline, which could trap bacteria and 
lead to gingivitis. While no clinical study has demonstrated 
negative oral health effects, I remain concerned about the 
potential risk.
    Last month, Chairman Upton and I introduced the Microbead-
Free Waters Act of 2015, legislation that requires FDA to 
prohibit the sale or distribution of cosmetics containing 
synthetic plastic microbeads beginning January 1, 2018. I want 
to thank Chairman Upton for joining me in this effort. I look 
forward to working with him to move this bill forward. Our 
legislation, bills, and efforts are already moving forward in 
many States including the one by Senator Greenstein in our home 
State of New Jersey.
    The legislation as it is currently drafted allows FDA to 
define a synthetic plastic microbead. The bill also does not 
currently address over-the-counter OTC drug products containing 
microbeads, of which toothpaste and acne creams are the most 
common examples. But I remain open to including these products 
in the legislation. However, also understand there are concerns 
about FDA requiring an 18-month stabilization period for 
reformulated OTC products, so it may be difficult to replace 
microbeads from these products on the same timeline.
    So I hope to hear more about this potential challenge from 
our witnesses today. I want to commend companies, such as 
Proctor & Gamble, Johnson & Johnson, who have already begun 
proactively phasing out the use of plastic microbeads in their 
products, but I believe we must set a Federal standard that 
requires all companies selling cosmetics and personal care 
products to remove plastic microbeads from these goods. And 
that is why we have introduced this bill, to provide certainty 
at the Federal level that these polluting plastics will finally 
be removed from our face scrubs, soaps, and other personal care 
products.
    So, Mr. Chairman, thanks again for holding this hearing. We 
have been able to come together on an issue to advance a 
commonsense solution that benefits our constituents and the 
environment. I don't know, Mr. Chairman, there are beginning to 
be so many bipartisan bills around this committee lately, I 
don't know what we are going to have to do. Maybe we should 
have a course for the rest of the Congress on how to act 
bipartisan.
    Mr. Pitts. We are going to have to call this public health 
Congress, I think.
    Mr. Pallone. I yield back.
    Mr. Pitts. All right, the chair thanks the gentleman.
    That concludes the opening statements.
    For the members, as always, any written opening statements 
will be made part of the record. We still have 397 Members who 
have not voted, so we are going to try to get through the 
opening statements of the witnesses. Let me introduce our 
panel, and they will speak in this order: Dr. Dan Wyant, 
director of Michigan Department of Environmental Quality; State 
Senator Linda Greenstein, from New Jersey legislature; Ms. 
Molly Flanagan from the Alliance for the Great Lakes; and Mr. 
John Hurson, executive vice president of government relations 
at the Personal Care Products Council.
    Your written testimony will be made a part of the record. 
You will each be given 5 minutes to summarize your testimony. 
Thank you very much for coming today.
    And, Mr. Wyant, we will begin with you. You are recognized 
for your opening statement.

   STATEMENTS OF DAN WYANT, DIRECTOR, MICHIGAN DEPARTMENT OF 
ENVIRONMENTAL QUALITY; LINDA R. GREENSTEIN, STATE SENATOR, NEW 
  JERSEY LEGISLATURE; MOLLY FLANAGAN, ALLIANCE FOR THE GREAT 
LAKES; AND JOHN HURSON, EXECUTIVE VICE PRESIDENT OF GOVERNMENT 
           RELATIONS, PERSONAL CARE PRODUCTS COUNCIL

                     STATEMENT OF DAN WYANT

    Mr. Wyant. Mr. Chairman, thank you----
    Mr. Pitts. Make sure you press the button there. If the 
light is on, that is good.
    Mr. Wyant. Mr. Chairman, and distinguished subcommittee 
members, thank you. I am Dan Wyant, and I am Director of the 
Michigan Department of Environmental Quality and I appreciate 
this opportunity to come before you today to speak on this 
important issue of microbeads.
    With four out of the five Great Lakes, 6.5 million acres of 
wetlands, and over 11,000 inland lakes, water is fundamental to 
the way Michigan views its future. Michigan is surrounded by 20 
percent of the world's fresh water, and so water is, quite 
simply, why people come to Michigan to live, work, and play.
    Michigan has a long history, as Chairman Upton certainly 
knows and has talked about, heritage of being a leader in water 
conservation and protection issues, and so my testimony today 
is going to be very consistent with what I have heard all of 
you talk about already.
    We have worked very hard in Michigan to protect and restore 
our Great Lakes, from our tough ballast water standards to the 
diligent implementation of the Compact Agreement that protects 
the Great Lakes from water diversions, to our regional 
leadership on the Great Lakes Commission, and the Council of 
Great Lakes Governors. Michigan has been at the table ready to 
work on environmental challenges of the day.
    Keeping in line with that, stewardship responsibility 
entrusted to my department, our focused now is shifting to the 
emerging issue of plastic microbeads in our water. As has been 
stated and as you are aware, plastic microbeads are a commonly 
used abrasive agent in personal care products, such as facial 
cleansers and toothpaste. Recent studies have noted that 
microbeads can pass through wastewater treatment plants into 
our surface waters.
    Microbeads were found in the Great Lakes surface waters 
during a number of studies, particularly in 2012, 2013. Plastic 
microparticles, of which microbeads are a subset, were detected 
in Lakes Erie, Huron, and Superior at a rate that is quite 
concerning, 43,000 per square foot per kilometer, and almost 10 
times higher in samples collected in Lake Erie downstream of 
two major Ohio cities.
    So the presence of microplastics in the Great Lakes is a 
concern because these constituent plastics may be entering the 
food chain after the plastics are consumed by fish and 
wildlife. In addition, toxic pollutants already present in the 
Great Lakes may bind to these pollutants and plastics, making 
them even more harmful. Recent laboratory studies have shown 
that microplastics have the potential to adversely affect fish 
and other aquatic organisms.
    Legislation is being debated in Michigan in our House and 
our State Senate that would phase out over the next couple of 
years the production and sale of personal care products that 
use microbeads. The legislation before this subcommittee and 
the same legislation that is being debated in Michigan I 
believe is a commonsense first step to the phaseout of the use 
of microbeads in personal care products. Although microbeads 
comprise only a portion of the plastic pollution detected in 
the Great Lakes, microbeads are an easily controllable 
component of that pollution.
    The simple phaseout of their use in beauty products would 
reduce the amount of plastics passing through our wastewater 
systems and reduce the potential harm to our fish and wildlife. 
It is important that we put into place a thoughtful but 
diligent phaseout of the harmful microbeads while allowing 
industry a path forward for new product development and use if 
they can demonstrate that their products would not have an 
adverse impact on the water and its biological life.
    Just as we don't tolerate plastics littering our roadside, 
we should not allow plastics to taint our beautiful Great 
Lakes. We urge action on this issue. We welcome a national 
approach. We have many complex issues to solve in the Great 
Lakes throughout our Nation's waterways, including invasive 
species and nutrient loading, just to name two. Microbeads is a 
clear issue. It is a clear threat. And there is a clear simple 
answer. And we support the phaseout of microbeads and a Federal 
approach. And we in the State of Michigan will continue to work 
to be part of that solution.
    Mr. Chairman, I appreciate this opportunity to come before 
the subcommittee and speak on behalf of the Department of 
Environmental Quality and, more broadly, the people of the 
State of Michigan. Michiganders love the Great Lakes. They 
expect strong leadership, and we want to recognize your 
leadership and the committee's leadership to address this 
issue. I appreciate being here, and I will be happy to take any 
questions that you may have.
    [The prepared statement of Mr. Wyant follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    Mr. Pitts. The chair thanks the gentleman.
    We are out of time on the clock on the floor, but we still 
have 297 people who have not voted, so we are going to 
continue.
    And I will recognize Senator Greenstein, 5 minutes for 
opening statement.

                STATEMENT OF LINDA R. GREENSTEIN

    Ms. Greenstein. Thank you very much, Chairman Pitts, 
Ranking Member Green, with greetings to Chairman Upton of the 
full committee and Ranking Member Pallone and members of the 
committee. Thank you for your invitation to be here today as 
you consider H.R. 1321, bipartisan Federal legislation that is 
aimed at stopping the entry into our waterways of billions of 
pieces of small bits of plastic known as microbeads, an effort 
that is similarly addressed under laws recently enacted in five 
States: New Jersey, Illinois, Colorado, Indiana, and Maine. I 
think in my testimony I said two. We were among the first two. 
There actually have very recently been three others, so five 
States.
    Before I begin I would like to acknowledge my home State 
Congressman and a co-sponsor of H.R. 1321, Representative Frank 
Pallone, whose leadership on environmental issues is legendary 
in the Garden State and whose invitation to testify is the 
reason that I am here this morning.
    Thank you, Congressman.
    I mentioned a moment ago that New Jersey is one of five 
States that has adopted legislation outlawing the use of 
microbeads. They are used by the personal care products 
industry in everything from toothpaste to over-the-counter skin 
treatments and exfoliants like facial scrubs. The problem is 
that these plastics are so small and nonbiodegradable, and they 
escape catchment screens at our sewage plants and wind up by 
the billions in our water supplies.
    These microplastics were recently found by research 
scientists, as you just heard, in all five of the Great Lakes, 
as well as in fish that make their homes in the Great Lakes and 
in fish-eating birds. These microbeads absorb toxins and so can 
be very dangerous to wildlife and ultimately to human beings. 
In New Jersey, two-thirds of our drinking water supply is drawn 
from local waterways like the Delaware or the Passaic Rivers. 
And so we, too, have our issues with microplastics. That is 
why, once their presence became known, we moved quickly to 
eliminate them through the bipartisan legislation that I co-
authored. I would like to note that the bill passed unanimously 
in the New Jersey Senate and by an overwhelming margin in the 
Assembly.
    And a funny thing happened on the way to this bill being 
signed into law in Trenton just 6 weeks ago. Groups that can 
often politely be called, quote, ``at odds with each other'' 
came together as one in agreement that these plastics should be 
eliminated from our waterways.
    The Chemistry Council of New Jersey, in a position shared 
by the American Chemistry Council and member companies, joined 
with the Sierra Club and other environmental groups to support 
our legislative efforts. Also Johnson & Johnson, the Consumer 
Health Care Products Association, and the Personal Care 
Products Council were all together on this issue. And I think 
if they can do it in New Jersey, they can do it everywhere 
else, and hopefully with a Federal law.
    Like your efforts here in Congress, we also agree to give 
the personal care products industry time to adjust and to find 
alternatives to these plastics.
    So the New Jersey bill uses a gradual approach to stepping 
down the production of these synthetic microbeads until they 
are completely off the market by January of 2020. It starts 
with the elimination of the tiny plastics from use in the 
manufacture of products beginning January 1, 2018, and then 
prohibiting the sale of such products after January 1, 2019. 
And, by January 1, 2020, no person shall sell an over-the-
counter drug with microbeads.
    The industry is already turning to natural alternatives, 
using crushed walnut shells, sea salt, and pumice stone, to 
produce the desired effect that the plastic microbead does. In 
our bill the penalty is $500 for each offense. We did lower our 
penalties from the original ones that we had, and our 
Department of Environmental Protection commissioner can 
institute a civil action for injunctive relief. There is no 
private right of action. We took that out as well.
    I appreciate the opportunity to appear today and will be 
available for any questions members may have, and I thank you, 
Chairman and members.
    [The prepared statement of Ms. Greenstein follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    Mr. Pitts. The chair thanks the gentlelady.
    We are voting, of course. We still have 185 Members who 
haven't voted. We are going to keep going. If you can 
abbreviate a little, I think we will make it through.
    The chair recognizes Ms. Flanagan.

                  STATEMENT OF MOLLY FLANAGAN

    Ms. Flanagan. Good morning. Chairman Pitts, Ranking Member 
Green, members of the committee, thank you for inviting me to 
appear today to address the threat that plastic microbeads pose 
to the Great Lakes. My name is Molly Flanagan. I am vice 
president of policy for the Alliance for the Great Lakes. For 
more than 40 years, the Alliance for the Great Lakes has been 
working to protect and restore the Great Lakes.
    We have frontline experience with the impacts of debris on 
the Great Lakes because each year more than 14,000 of our 
volunteers show up to clean up Great Lakes' beaches through our 
Adopt-a-Beach program. The Alliance supports Federal efforts to 
remove plastic microbeads from consumer products. The extremely 
small size of plastic microbeads allows them to easily wash 
down drains, pass through sewer systems and then head directly 
into our Nation's waterways.
    A study by the New York State Office of the Attorney 
General released in April 2015 detected microbeads in the 
effluent samples of 74 percent of the wastewater treatment 
plants participating in the study. Research by Dr. Sherri Mason 
of the State University of New York at Fredonia and Dr. Marcus 
Eriksen of the 5 Gyres Institute found microplastic fragments 
in each of the Greet Lakes and throughout water column in 
concentrations that rival or surpass those found in the 
Nation's oceans. Plastic microbeads attract and accumulate 
toxic chemicals, such as PCBs and DDT, which are present in 
waters throughout the United States, including the Great Lakes.
    An ongoing study of fish in the Great Lakes has shown 
plastic contamination in all 25 species that have been analyzed 
to date. You have the opportunity to stop this needless source 
of pollution by passing a Federal ban on the use of plastic 
microbeads. Continuing to allow plastic microbeads to enter the 
Great Lakes runs counter to our current protection and 
restoration efforts. Adding new sources of stress to the Lakes 
undermines the $1.9 billion in Federal funding that have been 
spent in the last 5 years through the bipartisan Great Lakes 
Restoration Initiative. Needlessly sending billions of plastic 
microbeads into waters we are spending so much time, energy, 
and money restoring is simply irresponsible.
    Microbeads can be found in over 100 personal care products, 
but it doesn't have to be that way because readily available 
alternatives existed. As noted by other speakers, a number of 
large companies in the cosmetic and personal care industry have 
voluntarily pledged to remove plastic microbeads from their 
products. We applaud these efforts. They are positive examples 
of good corporate stewardship. We also note that these 
voluntarily efforts have a variety of timelines for phaseout, 
may not include timelines at all, and do not consistently 
indicate what the company will use to replace microbeads. For 
example, the concept of marine biodegradable microbeads has 
been brought up in a number of States as they have considered 
bans. Unfortunately, there are no national or international 
standards for the biodegradability of plastics in ambient water 
environments. Until peer-reviewed research or testing by the 
American Society for Testing and Materials can provide 
standards for the biodegradability of plastics in Great Lakes' 
water conditions, biodegradable plastics should not be exempt 
from a ban.
    The Alliance believes that the right Federal regulatory 
approach can solve this problem. We urge Congress to pass a 
Federal ban on all forms of plastic microbeads in cosmetic and 
personal care products that, number one, charges the Food and 
Drug Administration with clearly defining plastic microbeads 
based on current scientific research and standards testing by 
authorities like the American Society for Testing and 
Materials.
    Number two, if terms such as ``synthetic'' and 
``biodegradable'' are used in statute or regulations with 
regard to microbeads, these terms must be clearly defined by 
the FDA to ensure that substances such as bioplastics are not 
excluded from biodegradability requirements.
    And, number three, it should set a realistic and achievable 
timeline to phase out cosmetic and personal care products that 
contain microbeads, ideally beginning 1 year from the enactment 
of this legislation.
    You have a great opportunity before you. We know that 
plastic microbeads are entering our waterways every day and 
that readily available alternatives exist. The Alliance for the 
Great Lakes and our supporters urge the United States Congress 
to pass a ban on the manufacture and sale of cosmetic and 
personal care products that contain all forms of plastic 
microbeads.
    The Alliance thanks Congressmen Upton and Pallone for 
introducing H.R. 1321 and considering our comments. Chairman 
Pitts, Ranking Member Green, thank you for holding this 
hearing. I look forward to answering your questions.
    [The prepared statement of Ms. Flanagan follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     
    Mr. Pitts. The chair thanks the gentlelady.
    We still have 89 Members that haven't voted. We are going 
to go to the last witness.
    Mr. Hurson, you are recognized for 5 minutes for an opening 
statement.

                    STATEMENT OF JOHN HURSON

    Mr. Hurson. Thank you, Mr. Chairman.
    Chairman Pitts, Ranking Member Green, Chairman Upton, and 
Ranking Member Pallone and members of the committee. Thank you 
for the opportunity to testify in support of discontinuing the 
use of plastic microbeads in personal care cleansing products 
and specifically to address H.R. 1321, the Microbead-Free 
Waters Act. The Personal Care Products Council is the leading 
trade association, representing 600 large-, medium-, and small-
sized companies that manufacture and distribute the vast 
majority of cosmetic and personal care products marketed in the 
U.S. As makers of a diverse range of products that consumers 
trust and rely on every day, from sunscreen, shampoo, and 
toothpaste to moisturizer, lipstick, and fragrance, personal 
care product companies are global leaders committed to safety, 
quality, and innovation.
    The American cosmetics industry employs more than 2.8 
million people nationwide with more than $260 billion in global 
annual sales. Our industry is dynamic and continuously develops 
innovative products to meet consumer demands and expectations. 
Our member companies invest more than $3.6 billion each year on 
scientific research and development. As a result of this 
research, 2,000 new products are launched each year, and 
numerous scientific studies are published on enhancing or 
developing new safety methods.
    Equally important is that our industry shares a common 
interest with other stakeholders in protecting the environment, 
and our members take questions regarding the presence of 
microbeads in our waterways very seriously. Our industry has a 
longstanding commitment to the global environmental stewardship 
of its products.
    Historically, plastic microbeads have been used in some 
personal care cleansing products because of their safe and 
effective exfoliating properties. These plastic beads have an 
excellent health and safety profile; do not present adverse 
effects, such as allergic reactions; are gentle on the skin, 
especially for consumers with sensitive skin conditions.
    Over the last 5 years, numerous reports in the press and 
some scientific literature have indicated the occurrence of 
plastic microbeads in our oceans and lakes. It should be noted 
that the source of these plastic microbeads are varied and 
difficult to ascertain. These may include clothing fibers, boat 
paint particles, degrading plastic bags and plastic bottles, 
and personal care products. However, out of an abundance of 
caution and despite the absence of any peer-reviewed science on 
the contribution from personal care products to plastic 
microbeads in the aquatic environment, our member companies 
have committed to discontinuing formulating products with 
plastic microbeads in favor of other viable alternatives.
    While we do support the discontinued use of plastic 
microbeads, it is important to recognize that product 
reformulation is an extremely complex process. Various and 
necessary steps include raw materials research and development; 
product testing and qualification to meet safety and regulatory 
requirements; manufacturing and postmarket surveillance for 
continual evaluation. This process takes many years. 
Furthermore, because of our commitment to the safety of our 
products, we must affirm that the alternative ingredient will 
not cause unintended consequences and will meet our consumers' 
safety and product needs.
    In 2014, a wide range of environmental, government, and 
business stakeholders came together in the State of Illinois to 
negotiate legislation to phase out plastic microbeads. All 
stakeholders supported the bill, which passed both houses 
unanimously and was signed into law in June of last year. New 
Jersey, Maine, Indiana, and Colorado have enacted similar 
legislation. And the Council of State Governments, a bipartisan 
government organization of State government officials, has 
adopted the Illinois law as suggested model legislation. Our 
industry supports Federal plastic microbeads legislation 
establishing a national, uniform standard that provides 
certainty for both consumers and businesses by setting 
appropriate and pragmatic phaseout dates, appropriate 
definitions of synthetic plastic microbeads, and inclusion of 
over-the-counter drugs containing plastic microbeads.
    It is especially important to carefully define synthetic 
plastic microbeads in the statute to avoid inadvertently 
prohibiting the use of natural alternatives and to make sure 
the prohibition provides clear direction to companies regarding 
reformulation. The dates for prohibition of manufacture and 
sell through of both personal care products and OTC products 
are also critical to assure a level playing field for both 
large and small companies as they reformulate. With the right 
policy framework, we can remain an innovative industry, 
providing our consumers with the safest, high-quality products 
they expect and deserve while also doing our role to continue 
to protect the environment.
    Thank you again for the opportunity to be here today. On 
behalf of the members of the Personal Care Products Council, we 
look forward to working with the committee on this legislation.
    [The prepared statement of Mr. Hurson follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Pitts. The chair thanks all the witnesses for their 
opening statements.
    We will recess for about an hour. We have got a series of 
votes. So we will reconvene as soon as the last vote is taken 
for questioning of the witnesses. Thank you very much for your 
patience. This committee stands in recess.
    [Recess.]
    Mr. Pitts. All right. If the panel will take your seats, we 
will reconvene. The subcommittee will reconvene. And I thank 
the witnesses and everyone for their patience.
    And I will begin questioning and recognize myself for 5 
minutes for that purpose. And these are questions for all the 
panelists. So we will just go down the line.
    So the first question is--many of the largest consumer 
product companies already have committed to phasing out the use 
of synthetic plastic microbeads under very aggressive 
timeframes.
    The question is: What additional benefit would a Federal 
phaseout of microbeads provide? Will the market move away from 
the use of microbeads without Federal oversight?
    Mr. Wyant.
    Mr. Wyant. Mr. Chairman, thank you.
    My opinion is that a Federal ban will ensure, essentially, 
elimination of a patchwork. States are moving quite 
aggressively, as has been pointed out. And, with that, there is 
going to be a number of approaches.
    I do compliment the personal care products industry in 
recognizing that there is a phaseout voluntarily in place. But 
on both sides of that, it is just my opinion that you would get 
consistency, you would get uniformity, and you would close the 
vulnerability for those who were not phasing out. And that is 
why we would support a Federal approach.
    Mr. Pitts. Senator Greenstein.
    Ms. Greenstein. Thank you, sir.
    I agree that uniformity is going to be the major advantage, 
but even now we see some disagreements. The first few States 
like New Jersey that got in right on the ground floor didn't 
seem to have these disagreements. But an example that I was 
talking with some of my colleagues about is that there has been 
brought up the idea of biodegradable plastics.
    So what we are going to have is that, as the industry moves 
forward, they will be saying, ``Well, make an exception for the 
biodegradables,'' even though they don't really exist now, as I 
understand it, ``Make other exceptions.'' And I think we are 
going to see a real patchwork, as you heard. I do agree with 
that.
    So I think it is very important, especially on something 
like this where we do have a lot of buy-in from the industry, 
to see if we can get a Federal law. I think that would work 
best.
    Mr. Pitts. Ms. Flanagan.
    Ms. Flanagan. I also agree that a Federal law makes sense. 
I applaud the personal care industry for the great steps that 
they are already taking to phase out these products.
    But it is not happening across the board. It is not 
happening on the same timeline, and they are not defining what 
will replace these microbeads in the same way.
    So a Federal ban would give us consistency and ensure that 
all companies are removing plastic microbeads from their 
products. Thank you.
    Mr. Pitts. Mr. Hurson, the question was--many of the 
largest consumer product companies already have committed to 
phasing out the use of synthetic plastic microbeads under very 
aggressive timeframes.
    What additional benefit would a Federal phaseout of 
microbeads provide? And will the market move away from the use 
of microbeads without Federal oversight?
    Mr. Hurson. I do think that the Federal approach is very, 
very important. First of all, you have a lot of States that 
have not yet taken action, and we need a Federal standard, a 
national standard, to cover all of those States.
    And I think the consistency of having Federal legislation 
in terms of both the timing and the definitions is going to be 
extremely important and very helpful.
    Mr. Pitts. OK. Let me continue with you. We will go back 
the other way.
    Why is it important to carefully define synthetic plastic 
microbeads in the statute?
    Mr. Hurson. It is important to define it in the statute for 
two reasons. First of all, it gives clarity to businesses as to 
how to reformulate them, what would be acceptable and not 
acceptable in the reformulation. And the second reason is 
because we want to get this done.
    I mean, the problem with waiting by having a Federal agency 
have to look at this again, it will just take a lot of time, 
and I think we want to get this thing solved and done and have 
these banned by a certain date. So----
    Mr. Pitts. OK. And we will go to Ms. Flanagan.
    And I want to add one more question to that. Not only the 
importance of defining the microbeads in the statute, but why 
would adding a phaseout date be important, if you can respond, 
Ms. Flanagan?
    Ms. Flanagan. Sure. So in terms of adding definitions, I 
think definitions could be included in statute or in 
regulation, but the importance of having careful definitions is 
so that industry does understand what is expected of them and 
so that we ensure that substances like bioplastics that may not 
be biodegradable aren't allowed. And what we are saying is that 
we just need to make sure that any standards and any 
definitions are based on current scientific research.
    And then, in terms of phaseout periods, I think it is 
important to have phaseout periods in order to make sure that 
all industries are meeting the standards on the same timeframe.
    Mr. Pitts. Senator Greenstein.
    Ms. Greenstein. Well, I will start with the phaseout dates. 
On the phaseout dates issue, in New Jersey, that was one of the 
places where we compromised. That was one of the places where 
the Governor in his conditional veto talked about the 
importance--he wanted lower fines because he didn't want people 
to go out of business, and he also wanted to give the industry 
a chance to adapt to this and to do what they needed to do. We 
made sure that the dates were very reasonable.
    I also think it is very important to define someplace, 
regulation or in the law--preferably in the law--exactly what 
we are talking about. So, in this case, I think definitions are 
critical. And the example I gave earlier about biodegradable 
and non-biodegradable products would be an example of where 
this is very important. We have to say what we are talking 
about so that industry is on notice.
    Mr. Pitts. Mr. Wyant.
    Mr. Wyant. I agree with clarity, consistency. And then the 
last point that you raise, I think it then encompasses and 
captures the entire, in our case, Great Lakes system.
    Mr. Pitts. Thank you. My time is expired.
    I now recognize the ranking member, Mr. Green. 5 minutes 
for questions.
    Mr. Green. Ms. Flanagan, thank you for your testimony.
    What currently are the known impacts of microbeads on our 
waterways and wildlife?
    Ms. Flanagan. So we know that fish and wildlife mistake 
plastic microbeads as food. And so fish will eat microbeads 
instead of eating other food sources. They don't provide any 
nutrition and can accumulate both in the gut of the fish and 
get into the circulatory system.
    And then, as larger predators eat those fish, those 
microbeads, which attract toxins like DDT and PCBs, get 
concentrated throughout the food chain, which could then cause 
harm to human beings who are eating those larger fish.
    Mr. Green. Have microbeads been found to negatively impact 
human health? And to carry on what you just said, has it been--
because I know in our area we have a dioxin problem in our 
waterway and obviously, the fish feed on it and humans catch 
those fish.
    Is that the same thing in the Great Lakes, I assume?
    Ms. Flanagan. I don't know the answer to that related to 
microbeads. I do know that fish, when they have PCBs or other 
contaminants concentrated in their tissue, that that does have 
an effect on human health, which is why we have fish 
consumption advisories in most Great Lakes waterways. I would 
imagine that plastic microbeads would work in much the same 
way, but I don't know for sure.
    Mr. Green. Mr. Hurson, in regards to the Microbeads Free 
Waters Act, is the January 1, 2018, ban on the sale and 
distribution of microbeads contained in cosmetics a realistic 
time for the industry to reformulate the products?
    Mr. Hurson. The January 1, 2018, in the model bills at a 
State level was a ban on manufacture, and then there is a year 
later for the ban on sale. That is sort of the compromise that 
we reached.
    There has to be a period of sell-through. So the banning of 
the manufacture is one thing, but getting all the product off 
the shelves will probably take another year.
    Mr. Green. OK. The legislation currently allows the FDA to 
define the term ``synthetic plastic microbead.'' However, the 
States have already passed laws banning microbeads have 
included a specific definition of the term.
    I understand that getting the definition right is important 
to ensure that all plastic microbeads are removed from 
products, but also to ensure that unintended consequences 
aren't caught in the definition.
    Chemistry changes literally every day. And if we define it 
so fine, there is going to be someone who will change that and 
maybe have the same product that is just a little bit 
different.
    How have the States dealt with that?
    Sure, Senator.
    Ms. Greenstein. OK. It is true that we will have changes as 
the science develops. No question about that. But I think at 
this particular time we have to deal with what we do know.
    There have been some recent studies. I know that, in 2012, 
there was a major study of the Great Lakes area and how that is 
being polluted by these microbeads. And there is also a study 
that I saw in the Tulane Environmental Law Journal that talks 
about the case for the ban.
    And we have the definitions that we have right now. We know 
that the non-biodegradable plastic is the thing that we were 
aiming at in our definition. So----
    Mr. Green. And I would hope the EPA would be cognizant of 
what the States have done on things that have worked and come 
up with a similar definition that you have.
    Ms. Greenstein. Well, we think that our definition was 
good. And I think the five States that have passed it have used 
similar definitions. So we are hoping that the Federal one 
would do that as well.
    Mr. Green. Mr. Hurson, in your testimony, you noted that 
the cosmetic industry supports the inclusion of over-the-
counter drugs containing microbeads in the Federal ban.
    Would you elaborate on the concern about OTCs in 
microbeads?
    Mr. Hurson. Yes. Be happy to do that.
    The industry does support the inclusion of over-the-counter 
drugs that contain plastic microbeads. Those would be mostly 
toothpaste and, also, acne cream. Those are both products that 
are on the market that contain these beads, acne cream in 
particular because of the sensitivity of the skin, and that is 
why they were used.
    But in order to get at all these products, we think those 
OTC products should be included. There is an issue related to 
regulation of OTCs different than the regulation of cosmetics. 
OTCs are regulated through an FDA monograph, and that requires 
certain additional types of testing of OTCs.
    So in terms of reformulating, we think the OTCs need an 
additional year to get the ban in place and to get the product 
sell-through. So that is an issue related to FDA regulation.
    Mr. Green. OK. Mr. Chairman, I am out of time. Thank you.
    Mr. Pitts. Chair thanks the gentleman and now recognizes 
gentleman from New York, Mr. Collins. 5 minutes for questions.
    Mr. Collins. Thank you very much.
    As someone who has Lake Erie on the western end of my 
district and Lake Ontario on the northern end, certainly in 
Lake Erie the microbead issue is front and center right now. 
And our waterways are a major piece of our economy.
    So my question is for Senate Greenstein. And you mentioned 
in your testimony that you agreed that it is--and we have all 
discussed this, I think--it is important to give the personal 
care products industry time to adjust to find alternatives, and 
I think we know why.
    But on the record, could you go into a little bit more 
discussion on that. And what is the timeframe, knowing that the 
products are a little bit different?
    Ms. Greenstein. Well, what we did in our legislation is we 
had--I am just looking for the exact dates here.
    On or after January 1, 2018, no person shall produce or 
manufacture in the State a personal care product containing 
synthetic plastic microbeads except at that point for an over-
the-counter drug.
    Then on the date of January 1, 2019, no person shall sell, 
offer for sale, or offer for promotion a personal care product 
with the synthetic plastic microbeads except for an OTC drug. 
And, finally, January 1, 2020, no sale, promotion, offer of an 
OTC drug.
    So we had different dates for each of those, the 
production, the sale, the over-the-counter. It was just in 
discussions with these companies that they felt they needed 
this additional time.
    Mr. Collins. Sure. So the good news for us in a way is 
seeing what New Jersey has done. In your discussions with the 
industry, they were comfortable that those timeframes were 
something they could live with.
    And I have to assume, many of them, they are not going to 
make a product for New Jersey and a different product for 
everyone else, that by leading the way in New Jersey, they are 
going to be transitioning.
    And I think a Federal law here does make a lot of sense, 
but I have to think common sense says they are going to make 
one kind of toothpaste and----
    Ms. Greenstein. Right. I think that is true except that, 
perhaps some of the industry would--although they have been 
starting on their own and trying to do this even before the law 
went into effect, I think they would scramble to some extent to 
find some different definitions, some product that perhaps they 
could do, that might be OK under our State law.
    But if we had a good, uniform, comprehensive Federal law, I 
think it would guide them in how they should----
    Mr. Collins. So what is going on in Europe? A lot of times 
on these types of issues we seem to see Europe would take a 
stance before us. Do they have standards now in Europe?
    Ms. Greenstein. Actually, you are right. They usually are 
ahead of us on some of these kinds of things. But on this, from 
the little bit that I have read about international standards, 
I think they don't have good standards on it, which is 
interesting.
    Mr. Collins. Well, that is. So we would actually be setting 
the stage----
    Ms. Greenstein. I think we are, and I think we are on the 
forefront on this issue.
    Mr. Collins. Yes. Well, I think----
    Ms. Greenstein. Usually that isn't the case on this type of 
thing.
    Mr. Collins. No, it isn't. So, again, I am glad to see what 
New Jersey has done.
    Ms. Greenstein. Thank you.
    Mr. Collins. It is a big issue, again, up in Lake Erie 
especially. So----
    Ms. Greenstein. I know it is.
    Mr. Collins. That is all I have got, Chairman. I yield 
back.
    Mr. Pitts. Chair thanks the gentleman and now recognizes 
the ranking member of the full committee, Mr. Pallone. 5 
minutes for questions.
    Mr. Pallone. Thank you, Mr. Chairman.
    I wanted to try to get in a question of Mr. Hurson and then 
to Senator Greenstein.
    So, Mr. Hurson, first, I wanted to focus a bit on the 
prevalence of the natural biodegradable alternatives to plastic 
microbeads.
    I know that many companies are transitioning away from 
plastic to natural exfoliants, like the walnut shell powder, 
and I am pleased to see that trend, coupled with proactive 
commitments from major companies like P&G and J&J to phase out 
plastic microbeads in their products.
    But I think it is important for us to pass this legislation 
to ensure that all companies manufacturing and selling personal 
care products in the U.S. Phase out these plastic ingredients.
    So could I ask you if you could tell me what actions your 
member companies are taking to transition to natural 
biodegradable exfoliants. I know you talked about this a 
little, but----
    Mr. Hurson. Thank you.
    The industry is actively doing research and trying to find 
the right kinds of raw materials that they could substitute and 
that have the same effectiveness. That is an ongoing practice 
right now.
    This industry is always reformulating products. It is sort 
of how it does business because they always want new things on 
the market. So it is an active industry in terms of 
reformulating and trying to get it right.
    But it does take time to both source the materials, make 
sure they are effective, that they are effective for what the 
consumers want. So that is actually happening now, all that 
resourcing.
    Mr. Pallone. And in transitioning to natural exfoliants, do 
you think it is going to be particularly burdensome or cause 
the companies to be unable bring effective products to market?
    Mr. Hurson. It is obviously going to be difficult and it 
takes time, but it is not something these companies can't do. 
They are experts at reformulating. That is what they do every 
year. There are 2,000 new products a year. So they can do it, 
but it will take some time.
    It is not a simple thing where you just pull out one 
ingredient and put in another. It actually takes a lot of 
research and testing and time to get it done. So it is 
happening now, and it will happen and they will do it.
    Mr. Pallone. All right. Thank you.
    Let me go back to my friend here, the Senator. I would like 
you to discuss--I know you talked about the New Jersey law. And 
obviously, you have done a great job in getting this passed.
    But can you tell me briefly about--well, I know you have 
kind of gotten into this already, but just give me a little 
more information about the bipartisan nature of this in New 
Jersey and how industry and environmental groups came together 
to support the bill.
    Ms. Greenstein. Well, it was really a combination. It was 
bipartisan on a political level. Everybody joined in, and there 
was not a single partisan aspect to the passage of the bill. 
Everybody became part of it.
    I think I said it passed the Senate unanimously and almost 
unanimously in the Assembly. I think some people were just 
absent. So it definitely had bipartisan support, and not 
everything does.
    But in addition to that, we had the support of groups that 
normally don't get together on the same bill. So we had the 
Sierra Club and then we had all of the industry, the chemistry 
industry and the personal products and all of the different 
parts of the industry who would really lose money, in a sense, 
by moving to this new formulation, but, nevertheless, felt this 
was the right direction to go.
    And this is the direction that we are going and they felt 
that push and everybody got together on it. So I think it would 
be great if everything were that way. Unfortunately, everything 
isn't. But this bill certainly moved in that----
    Mr. Pallone. Well, there has been a lot of it around here 
lately, I have to say.
    Ms. Greenstein. I tell you, that is great.
    Mr. Pallone. Now, of course, you know, you said that we 
should have a national standard, and there was a recent study 
released by the New York Office of the Attorney General that 
detected microbeads in samples from 25 of 34 wastewater 
treatment plants that were surveyed in New York.
    Given that New Jersey and New York share many of the same 
waterways, does that concern you? And again, if you wanted to 
talk again about the need for a national standard, I think most 
people are aware of it, but certainly we are acutely aware of 
the fact that, being a small State and sharing waterways with 
New York and Pennsylvania, you know, that we can't just do 
things on our own.
    Ms. Greenstein. Well, I actually did see that study, and I 
noticed that several of the waterways would be ones that we 
would share. So, yes, we are all affected by what goes on in 
the States around us and sometimes several States away.
    And that study did concern me, along with several other 
studies that I looked at. And there have been quite a few since 
the year 2012 and more and more, starting with the Great Lakes 
and working up to areas like ours in New York.
    So what was the second part of the question?
    Mr. Pallone. Yes. You answered it. Thank you.
    Ms. Greenstein. That essentially, I think, is extremely 
important and the need for the national standard, as you heard 
from, I think, all of us here, uniformity, definitely, making 
it all clear to the industry so they know which direction to 
go.
    There is no point in having 50 different laws, and it seems 
like we are moving that way. Because just in a very short 
period of time, three new laws were signed. And there are a 
bunch on governors' desks, and pretty soon we will have 50 
different laws.
    I think it would behoove us to have a Federal law that 
makes it very clear to the industry where we are going.
    Mr. Pallone. Thank you.
    Ms. Greenstein. Thank you.
    Mr. Pallone. Thanks for being here.
    Mr. Pitts. The chair thanks the gentleman.
    Mr. Pallone. Oh, Mr. Chairman.
    Mr. Pitts. Yes.
    Mr. Pallone. Can I just ask unanimous consent to enter into 
the record a letter from 5 Gyres, which I mentioned in my 
opening statement, and also from the Surfrider Foundation on 
this issue?
    Mr. Pitts. All right. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Pitts. nd I have a unanimous consent request from the 
American Chemistry Council submitted by Mr. Shimkus to be put 
into the record. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Pitts. The chair recognizes the vice chair of the 
subcommittee, Mr. Guthrie, 5 minutes for questions.
    Mr. Guthrie. Thank the chairman for yielding.
    I appreciate all of you being here today. And I have a 
question to all of the panelists. I would like to address this 
going down the line, I guess.
    Wasn't there microbeads that are used in other industries 
that are contributing to this problem? But I would like to hear 
from each of you why you think eliminating the use in personal 
care products will be a profound start to correcting the 
problem.
    If you will just start, Mr. Wyant.
    Mr. Wyant. There are other plastics, clearly, but this is, 
I think, a practical, commonsense solution. More science could 
come to bear on this, but what we do know is we are 
accumulating microbeads in the Great Lakes, and we have a great 
concern about that.
    We now know their bio-accumulative effects when wildlife 
consumes microbeads, and we know that has the potential of 
human health impact over time.
    So we just think it makes common sense and it is the right 
thing to do. Phasing out, I think, is the, again, win-win that 
we look forward to, consistency, uniformity, and then no 
loopholes in the system. And that is why we support it.
    Mr. Guthrie. I am going to continue on down the line 
because I want to get to a couple other questions.
    But specifically why in personal care products? I don't 
understand the issue with microbeads, why you think it would be 
a profound difference to do it in just personal care products 
when other industries do it.
    Ms. Greenstein. I am going to assume that personal care 
products would be the main area where we get the microbeads. 
Now, certainly there are other kinds of plastics that come from 
many different sources. All of the articles I read focused on 
microbeads. That is personal care. But, frankly, I think we do 
need to go beyond it.
    One of the things that really either impressed or depressed 
me, depending on how you look at it, was these large--I guess 
they call them garbage patches--in both the North Atlantic and 
the Great Pacific, which are not just microbeads, but they have 
relatively high concentrations of certain kinds of plastics and 
chemical sludge because these mix together. And there are 
enormous patches just, I guess, under the surface of the water 
in both of our oceans.
    So we definitely are polluting with manmade products. I 
think, frankly, we should look beyond just microbeads, but 
microbeads go with personal care products. So that is what we 
are focusing on right now. But we have to look at the other 
plastic and other chemical pollution that is going into our 
oceans.
    Mr. Guthrie. OK. I will just go on to Ms. Flanagan.
    But my understanding, though--and I will just go on to Ms. 
Flanagan--is that microbeads that are personal care products 
aren't just in personal care products. They are in--I 
understand there is other plastics.
    So, Ms. Flanagan.
    Ms. Flanagan. Yes. There are other sources of 
microplastics. From my understanding, it can come off of 
certain types of fleece or other microfibers. So you can get 
microplastics that aren't necessarily spherical.
    I do think plastic microbeads are a good place to start. In 
the study that I referenced during my testimony by Dr. Sherri 
Mason of the State University of New York at Fredonia and Dr. 
Marcus Eriksen of the 5 Gyres Institute, when they surveyed the 
Great Lakes and looked at microplastics, 58 percent of all the 
microplastics that were smaller than 1 millimeter collected in 
the Great Lakes were spherical.
    So you are not going to tackle the entire microplastics 
issue by getting at microbeads, but you are going to be 
addressing a significant chunk of it.
    Mr. Guthrie. Oh, thank you.
    And Mr. Hurson.
    Mr. Hurson. It is a very good question.
    There is not any reliable scientific information at this 
point as to the sourcing of microbeads, but it is very clear 
they are used in personal care products. So we are committed to 
getting them out of personal care products.
    That is the simple answer to your question, which is we 
know they are in our products. We want to get out of them. Our 
companies are already reformulating out.
    But since there isn't any definitive science study at the 
moment as to the sourcing of all the microbeads that are out 
there in the environment--there are other industries that use 
them.
    So it is a great question. But at least we can start here, 
and we think it is smart to start with a national standard and 
a very clear idea of what we are trying to get at.
    Mr. Guthrie. So, Mr. Hurson, just continuing, should over-
the-counter products be included in this legislation? And what 
are the requirements for the over-the-counter for just regular 
cosmetic products?
    Mr. Hurson. As an industry, we do support the inclusion of 
over-the-counter products like toothpaste and acne cream that 
do have microbeads. It does mean that we have to look a little 
bit more carefully at the time lines because, because of the 
way those products are regulated by FDA, there is additional 
testing that has to be done.
    So when you reformulate those products, you literally have 
to spend 18 months--you put the new formulation--put it on the 
shelf. It is called stabilization testing. You have to make 
sure that the new ingredient doesn't in some way affect the 
active ingredients in an over-the-counter drug, and that is why 
you need more time to reformulate in that product category.
    Mr. Guthrie. OK. In your previous answer, you said that 
microbeads are from other industries, that nobody knows exactly 
where the ones collecting are from, but you recognize they are 
in your products; so, if we want to address the problem, if you 
are contributing to it, addressing it by getting microbeads out 
your products.
    What ingredients are companies using to replace these 
products? I mean, what is the replacement for that?
    Mr. Hurson. We are looking for all kinds of natural 
ingredients that could replace it. You have things like salt, 
sugar, ground-up walnut shells, ground-up apricot pits.
    But when you think about manufacturing these products, 
first of all, you have to source them. You know, you have to 
find a place to buy those and supply those ingredients, and 
that could be tricky as the entire industry moves at the same 
time. It might be hard to source them.
    And then the other thing is you have to recalculate and 
redo your manufacturing processes because you are going to have 
a different reaction in trying to put that particular 
ingredient into the products. You might have different 
machinery that you need.
    So it does take time to actually get this done. But it is 
the natural things that we are trying to find that would give 
us the same scrub type of effect in exfoliating.
    Mr. Guthrie. Well, thank you.
    And this is an issue that I am learning more about and 
didn't really understand it until we started focusing on it 
through this committee.
    And that is what this process is for and why your testimony 
is important. And, hopefully, we will work into a solution 
because I understand there is a real problem we need to 
address. So thank you very much.
    And I yield back.
    Mr. Pitts. The chair thanks the gentleman and now recognize 
the gentlelady from Illinois, Ms. Schakowsky. 5 minutes for 
questions.
    Ms. Schakowsky. Thank you.
    I would like to continue along those lines talking about 
the various products that we want to get off the market.
    So, Mr. Hurson, you said in your testimony that the 
Personal Care Products Council supports the discontinued use of 
plastic microbeads, in general. And I am not quoting, but you 
made kind of a general statement.
    So you do support a ban that applies both to personal care 
products and to over-the-counter drugs like acne? And you were 
talking about how much longer it might take for those. But you 
do support that?
    Mr. Hurson. Yes, we do.
    Ms. Schakowsky. OK. Thank you very much.
    I wanted to ask Ms. Flanagan a question. And, first of all, 
let me just say I am very proud that Illinois was the first.
    And congratulations, Representative Greenstein--for New 
Jersey following.
    And all this has happened pretty quickly. Five States now 
have laws, and many more are considering it because clearly it 
is viewed as a serious hazard.
    So I am trying to get a sense of just how critical this is 
in the Great Lakes, an estimate for how--not exactly how many 
microbeads. But how present is it in the lakes right now?
    Ms. Flanagan. Sure. So microbeads have been found in all of 
the Great Lakes and throughout the water column and in 
concentrations that rival or surpass the concentrations of 
microbeads found in the oceans. So it is a pretty critical 
problem in the Great Lakes region, and it is a problem 
throughout all of the lakes and even into the St. Lawrence 
River.
    And then, of course, the issue is that fish throughout the 
region mistake these microbeads for food and can concentrate 
toxins up the food chain. And so, there are a number of 
critical issues facing the Great Lakes: invasive species, 
nutrient problems. Microbeads are just one of them.
    You are spending a lot of money through the Great Lakes 
Restoration Initiative to address those issues. Thank you for 
that. And I think that avoiding this needless additional threat 
to the Great Lakes makes a lot of sense.
    Ms. Schakowsky. So clearly it ought to be a priority to get 
Great Lakes States involved in banning them.
    Ms. Flanagan. Yes. Absolutely. I think, if the Federal 
Government can come to agreement on standards and regulation 
that will ensure that plastic microbeads are out of personal 
care products, that that would be a good solution.
    Aside a Federal ban, then, yes. Having the Great Lakes 
States act collectively would be important for----
    Ms. Schakowsky. Yes. Of course, if there were a Federal 
ban.
    But then what about internationally? Has Canada made any 
moves?
    Ms. Flanagan. I just got an update from a colleague in 
Canada. They do not have bans now. But the Province of Ontario 
is learning more about this problem and considering taking 
action, and in Ottawa the Federal Government has also, I think, 
approved some additional study of the issue. So additional work 
is certainly needed on both sides of the border.
    Ms. Schakowsky. I think one of you had testified earlier 
that it is not really a danger to human beings. Obviously, I 
guess, if it is external, that is true.
    Is that the case?
    Ms. Greenstein. Well, I think I might have said earlier, 
when it comes to dangers to the environment, that is pretty 
much documented at this point. Dangerous to water. Dangerous to 
animals. And, of course, that goes up the food chain.
    But actual studies of human health and how it is affected, 
there really is not a lot of scientific study of that yet. I 
think we are moving in that direction. But right at the moment, 
if you said pick out a study that shows the dangers to human 
health, I don't think we quite have that yet.
    Ms. Schakowsky. Toothpaste. Clearly, if you are brushing 
your teeth, the chances are great that you swallow those.
    Ms. Greenstein. The chances are great.
    Ms. Schakowsky. And so it would seem to me, if we are 
concerned about the fish and up the food chain, that that would 
be an area that we would want to look at.
    Anybody else want to comment on that?
    Ms. Flanagan. I would just agree with you that, the fact 
that we know fish are eating these microbeads, that they are 
concentrating up the food chain, that they even could pose a 
risk to human health, is enough of a reason to get them out of 
the Great Lakes and out of our waterways.
    Ms. Schakowsky. And, finally, again for Mr. Hurson, so tell 
me what the Council is doing in terms of educating its members.
    Oh, I am sorry, Mr. Chairman. I see I am over time. Can he 
answer that?
    Mr. Hurson. I would be happy to answer it.
    The Council has been very active in this area at the State 
level. We were the ones who were part of the negotiations in 
your State when Illinois passed the first bill.
    And we also took the Illinois bill to the Council of State 
Governments to get it as model legislation to be recommended to 
all the States, and that is one of the reasons you have had 
three additional States, besides Illinois and New Jersey, pass 
it this year. It is under consideration in at least 10 to 15 
more States right now.
    So we are very active in advocating the banning of these 
microbeads in personal care products and certain over-the-
counter products. We also are very active in the science side, 
trying to get more information about how the flow does work in 
our wastewater treatment plants, as well as trying to educate 
internationally, both in Europe and in Canada, trying to get 
them to understand how important it is to get these ingredients 
out of these products.
    Ms. Schakowsky. Thank you for that.
    I yield back.
    Mr. Pitts. Chair thanks the gentlelady and now recognize 
the gentleman from New Jersey, Mr. Lance. 5 minutes for 
questions.
    Mr. Lance. Thank you, Mr. Chairman.
    It is an honor to meet you, Ms. Flanagan, and, Mr. Wyant. 
And I have worked in the past with Mr. Hurson.
    But on the panel the person I know best is Senator 
Greenstein. The Senator and I served together in the lower 
house of the New Jersey Legislature, the General Assembly, and 
then in the upper house of the New Jersey Legislature, the 
State Senate, and the Senator is familiar with Washington, 
having graduated from Georgetown Law School. And I see Mr. 
Greenstein in the audience as well.
    I guess I would want to know, Linda, who was absent in the 
Assembly and didn't vote for your bill.
    Ms. Greenstein. We will be checking that out.
    Mr. Lance. I hope it is not my two members of the General 
Assembly.
    Let me first ask, Mr. Wyant. I understand before your 
distinguished tenure at the Department of Environmental Quality 
in Michigan you were also the director of the Department of 
Agriculture for both a Republican and a Democratic governor.
    Is there an interplay between agricultural matters and 
environmental protection on this issue?
    Mr. Wyant. I wouldn't say necessarily on this issue. 
Michigan's perspective is--clearly we know microbeads are 
making it into the Great Lakes and the Michigan waters. Clearly 
we know, when we test wastewater treatment facilities, we 
discover microbeads.
    And then we can draw the natural conclusion and issue--the 
relationship with agriculture and nutrient-loading and water 
quality issues is quite apparent. And so there are other 
significant nexuses.
    And so I guess I would add in close with the fact that the 
fact that we do get, in some cases, toxins, not necessarily 
agriculture-related, you know, we know that, again, big 
industrial States have legacy issues. That is our concern.
    Mr. Lance. Thank you.
    And to Senator Greenstein, as I understand the New Jersey 
legislation, you crafted it in such a way that it was a model 
based also on what has happened in Illinois.
    Could you explain to the committee why the phaseout period 
was designed the way it was and, also, the importance of 
providing an adequate timeframe for compliance.
    Ms. Greenstein. Yes. I believe in some earlier versions of 
the bill we may have had a little bit of a tighter timeframe.
    But in the Governor's conditional veto, the two things he 
was very concerned about was adequate time for the industry--so 
we needed to spread that out a bit--and he was also concerned 
that the fines were too--we were going up to like $10,000. So 
we brought it to $500. And, also, we had included a private 
right of action. He wanted that out as well.
    So we went along with everything he said because we wanted 
the bill to pass and we thought it was still a very good bill, 
even with those changes.
    Mr. Lance. Thank you.
    As a matter of information to the committee, in New Jersey, 
the Governor of our State has the power to modify legislation 
that reaches his desk. And that modification is then sent back 
to both houses of the State legislature, and both houses have 
the opportunity to agree with the Governor's modifications by 
simple majority. And that is a way in which the two elected 
branches in New Jersey work together.
    And I certainly commend all of those involved in New 
Jersey, including, in particular, my friend, Senator 
Greenstein.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Pitts. Chair thanks the gentleman.
    Just one question.
    Clarification. In the material, we read of glass microbeads 
as well. This legislation only applies to plastic microbeads.
    Are you familiar with microbeads which are glass? Are they 
utilized? Are there any dangers with that, Mr. Hurson?
    Mr. Hurson. Mr. Chairman, I am not aware of glass 
microbeads being used in our products. I think one of the 
alternatives that people are looking at would be like a pumice 
stone type of microbead. But I am not aware that they are 
researching looking at glass.
    Mr. Pitts. Ms. Flanagan?
    Ms. Flanagan. I am not familiar with glass microbeads. I am 
not saying they don't exist, but I am not familiar with them.
    Mr. Pitts. Senator?
    Ms. Greenstein. Also have not read anything about that. And 
the only thing that I can think of is maybe for decorative 
purposes. But they wouldn't be used in these kinds of products 
because glass in toothpaste--let's hope that doesn't happen.
    Mr. Pitts. Hope not.
    Mr. Wyant.
    Mr. Wyant. I am not aware of any issues as it relates to 
glass.
    Mr. Pitts. All right. I think the other members who were 
here are at another hearing. I apologize for that.
    We will have follow-up questions. If we submit them to you 
in writing, would you please respond promptly? Thank you.
    And I remind members that they have 10 business days to 
submit the questions for the record. And members should submit 
their questions by the close of business on Friday, May the 
15th.
    Very interesting hearing. We intend to act on it. Thank you 
very much for your patience today and all the good information 
you provided to the committee.
    At this time, without objection, the subcommittee is 
adjourned.
    [Whereupon, at 11:34 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
                                 [all]
</pre></body></html>
